                            Office of the Inspector General

November 26, 1999

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Beneficiaries Expressing Interest in Vocational Rehabilitation Services Through a
Continuing Disability Review Mailer (A-01-97-61004)


Attached is a copy of the subject final report. The objective of this review was to
assess the use of the Social Security Administration’s (SSA) continuing disability
review (CDR) mailer program as a tool for identifying candidates for vocational
rehabilitation services. Specifically, we determined whether individuals who expressed
an interest in vocational rehabilitation on a CDR mailer would have been accepted to
enter rehabilitation programs by State vocational rehabilitation agencies if SSA had
referred them.

You may wish to comment on any further actions taken or contemplated on our
recommendations. If you choose to comment, please provide your comments within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at (410) 965-
9700.




                                               James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



    BENEFICIARIES EXPRESSING
     INTEREST IN VOCATIONAL
    REHABILITATION SERVICES
      THROUGH A CONTINUING
    DISABILITY REVIEW MAILER

   November 1999   A-01-97-61004



EVALUATION

  REPORT

                 E X E C U T I V E S U M M A R Y


OBJECTIVE

The objective of this review was to assess the Social Security Administration’s (SSA)
use of the continuing disability review (CDR) mailer program as a tool for identifying
candidates for vocational rehabilitation (VR) services. Specifically, we assessed
whether individuals who expressed an interest in VR on a CDR mailer would have been
accepted to enter rehabilitation programs by State vocational rehabilitation agencies
(VRA) if SSA had referred them.

BACKGROUND

Periodically, SSA is required to re-examine the medical condition of disabled
beneficiaries. These re-examinations, called CDRs, determine whether individuals are
still disabled and eligible for benefits. Beginning in 1993, questionnaires called CDR
mailers replaced full medical CDRs for beneficiaries with a relatively low likelihood of
benefit termination. In Fiscal Year (FY) 1996, SSA conducted 275,127 CDRs through
mailers. In accordance with a memorandum issued by the Commissioner in
March 1998, SSA expects to conduct about 900,000 CDR mailers per year for FYs
1999 through 2002. Included in this mailer is a question for the beneficiary regarding
whether the individual would be interested in rehabilitation services. Until
January 1996, SSA extracted “Yes”responses to this question and forwarded this
information to State VRAs.

In January 1996, SSA suspended its procedures for forwarding CDR mailer information
to State VRAs. As the reason for suspending these referrals, SSA officials cited
anecdotal information from State agencies that beneficiaries referred based on CDR
mailers were not qualified candidates for rehabilitation. SSA officials also believed that
many beneficiaries answered “Yes”to the rehabilitation question because they believe,
if they did not do so, their benefits will be in jeopardy.

RESULTS OF REVIEW

VRA ACCEPTANCE OF MAILER REFERRALS

According to SSA, referring individuals requesting VR on a CDR mailer was not
efficient. We believe, however, with improvements to the process, these referrals can
be more cost effective and result in significant cost savings. Our review found that for




                                            i
the eight States selected for review, State VRAs accepted 102 of the 114 beneficiaries
they evaluated (60 of the 102 were accepted as a result of our review, whereas the
remaining 42 had been accepted prior to the start of our review). VRAs did not
evaluate the remaining 686 of 800 beneficiaries sampled for various reasons described
in the body of this report.

REFERRAL PROCESSING

Before SSA suspended its VRA referral procedures, service delivery was impeded by
untimely referrals. This time lag diminished the quality of referrals as beneficiaries’
circumstances often change over time. SSA’s procedures allowed between 181 and
301 days after receiving a CDR mailer to refer a beneficiary who expressed an interest
in services to a VRA. All of the VRAs included in our review reported difficulties
locating or contacting beneficiaries who, oftentimes, had changed address or telephone
number since submitting their CDR mailer to SSA. From our sample of
800 beneficiaries, VRAs reported that they were unable to contact or locate
354 (44.25 percent) of the sampled beneficiaries.

CHARACTERISTICS OF BENEFICIARIES ACCEPTED

SSA cited concerns on the part of State VRAs regarding the cost-effectiveness of
evaluating CDR mailer-referred VR candidates as a reason for suspending its referral
program. Our analysis of beneficiaries accepted for services showed specific
characteristics that could be used to identify beneficiaries with the highest probability of
acceptance, thereby reducing the State VRAs’cost to evaluate CDR mailer-referred VR
candidates.

RECOMMENDATIONS

We recommend that SSA:

•	 establish new procedures which require that, within a reasonable time after a CDR
   mailer is received, a notification letter is sent to beneficiaries who express interest
   in rehabilitation services, advising them of services and contacts available locally;
   and

•	 re-establish procedures for making VRA referrals to State agencies from CDR
   mailers, but with improvements, such as: identifying beneficiaries likely to be
   accepted for services by State VRAs; or hiring a contractor to evaluate mailer
   referrals prior to referring cases to the State VRAs.

AGENCY COMMENTS

In response to our draft report, SSA officials disagreed with both of our
recommendations. SSA stated that the CDR mailer is not an effective means of


                                             ii
identifying VR candidates and that it has developed better initiatives to ensure that
interested beneficiaries receive rehabilitation and employment support services. (See
Appendix C for SSA’s comments on the findings and recommendations our draft
report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE

While SSA may have developed additional initiatives to enable interested beneficiaries
to receive rehabilitation and employment support services, we believe these new
initiatives complement rather than supersede the CDR mailer referrals. Accordingly,
SSA should use the readily available information on the CDR mailer to provide timely
assistance to those individuals who express an interest in VR services. In addition, to
ask a beneficiary whether he or she wants rehabilitation assistance and then to not act
on an affirmative reply is not in keeping with SSA's strategic objective to "… shape the
disability program in a manner that increases self-sufficiency… " Finally, SSA's
modifications to the CDR mailer have resulted in a significant decrease in requests for
rehabilitation services. Further review of the response data should be made before
SSA concludes that the CDR mailer is no longer a viable means to identify
beneficiaries who may want rehabilitation services.




                                           iii
                         T A B L E O F C O N T E N T S


                                                                                                              Page

EXECUTIVE SUMMARY .........................................................................................i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

    VRA ACCEPTANCE OF MAILER REFERRALS ............................................... 4

    REFERRAL PROCESSING............................................................................... 5

    CHARACTERISTICS OF BENEFICIARIES ACCEPTED .................................. 6

CONCLUSIONS AND RECOMMENDATIONS ...................................................... 8


APPENDICES
Appendix A - Sampling Methodology

Appendix B - Sample Results

Appendix C - Agency Comments

Appendix D - Major Contributors to this Report

Appendix E - SSA Organizational Chart

                              I N T R O D U C T I O N


OBJECTIVE

The objective of this review was to assess the Social Security Administration’s (SSA)
use of the continuing disability review (CDR) mailer program as a tool for identifying
candidates for vocational rehabilitation (VR) services. Specifically, we assessed
whether individuals who expressed an interest in VR on a CDR mailer would have been
accepted to enter rehabilitation programs by State vocational rehabilitation agencies
(VRA) if SSA had referred them.

BACKGROUND

The Disability Insurance (DI) program was established in 1954 under title II of the
Social Security Act. It was designed to provide benefits to disabled wage earners and
their families. In 1972, Congress enacted the Supplemental Security Income (SSI)
program under title XVI of the Social Security Act. The SSI program provides a minimal
level of income to financially needy individuals who are aged, blind, or disabled.

A major objective of the disability program is to help restore disabled individuals to
productive activities. Accordingly, all disability claimants are considered for referral to
their State VRA for rehabilitation services. Vocational rehabilitation is defined as a
process of restoring the handicapped individual to the fullest physical, mental,
vocational, and economic usefulness of which the person is capable.1 When an
individual is being considered for services by a VRA, an evaluation of the person’s
vocational handicap, based on medical and vocational findings, is made by a
rehabilitation counselor to determine eligibility for services. If the individual is eligible
for services, the counselor and the client will work out a plan or program of
rehabilitation.

Periodically, SSA is required to re-examine the medical condition of disabled
beneficiaries. These re-examinations are called CDRs. CDRs determine whether
individuals are still disabled and eligible for benefits. In the past, SSA performed
medical CDRs by referring nearly all disabled individuals to State Disability
Determination Services units for full medical evaluations.

Beginning in 1993, questionnaires called CDR mailers replaced full medical CDRs for
some beneficiaries to increase the cost-effectiveness of the CDR process. SSA
developed statistical formulas for estimating the likelihood of medical improvement and

1
    SSA’s Program Operations Manual System, Section DI 13501.001.
subsequent benefit termination based on computerized beneficiary information such as
age, impairment, length of time receiving disability benefits, and date of last CDR.
When application of the formulas indicates a relatively low likelihood of benefit
termination, SSA uses a CDR mailer. When the formula application indicates a
relatively high likelihood of benefit termination, SSA uses a full medical CDR. For
those who receive CDR mailers, SSA takes an additional step to determine whether
responses to the CDR mailer, when combined with data used in the formulas, indicate
that medical improvement may have occurred. In the small number of cases where this
occurs, the beneficiary is also given a full medical CDR. For individuals who have
responded to a CDR mailer and, based on a SSA Disability Examiner’s review, are not
referred for full medical CDRs, SSA sets a future CDR date. In Fiscal Years (FY)
1996 and 1997, SSA conducted 275,127 and 269,615 CDRs, respectively, through the
mailer process. In accordance with a memorandum issued by the Commissioner in
March 1998, SSA budgeted for 752,000 mailers for FY 1998 and 900,000 mailers per
year for FYs 1999 through 2002.

Included in the CDR mailer is a question for the beneficiary regarding whether the
individual would be interested in rehabilitation services. Before October 1997, the
question was: “Would you be interested in receiving rehabilitation or other services
that could help you get back to work?” Between December 1995 and December 1996,
some 98,064 CDR mailer responders answered “Yes”to this question, or 36 percent of
the responders. As of October 1997, the mailer was revised and the question now
reads: “Would you be interested in receiving vocational rehabilitation and related
services which can help you obtain employment?” Also, the question is now below the
signature line on the mailer and not with the other questions related to whether the
individual’s medical condition has improved. Since the revised mailer was
implemented, subsequently 483,192 individuals have responded to the mailer and
43,665 of those (or 9 percent) have responded “Yes”to the vocational rehabilitation
question.

From the inception of the mailer until January 1996, SSA staff extracted “Yes”
responses to this question and forwarded this information to the Office of Disability’s
Division of Employment and Rehabilitation, which was responsible for forwarding the
information to State VRAs. In January 1996, SSA suspended its referral procedure,
discontinuing the practice of referring beneficiaries who expressed an interest in
rehabilitation on CDR mailers to State VRAs.
SCOPE AND METHODOLOGY

To accomplish our objective, we:

   •	 obtained an extract of 98,064 CDR mailers received from December 1995
      through December 1996 in which the beneficiary expressed an interest in
      rehabilitation services;

   • conducted survey work at the Massachusetts Rehabilitation Commission;

   •	 selected a random sample of 100 beneficiaries from each of 8 randomly selected
      States for a total sample size of 800 beneficiaries (see Appendix A for a
      description of our sampling methodology);

   •	 submitted the selected beneficiary records to the selected State VRAs with
      requests for determinations of whether the beneficiaries would have been
      accepted for VR;

   •	 randomly selected a ninth State to replace Texas, which was one of our
      originally selected eight States, but refused to participate in our review; and

   •	 computed the historical average rate of rehabilitation success for beneficiaries
      accepted for VR.

As our review of program performance was measured by the results of our substantive
testing of sample cases, we did not place any reliance on internal controls. We
conducted our review during the period of May 1997 to June 1998 in
Boston, Massachusetts. This review was conducted in accordance with the Quality
Standards for Inspections issued by the President's Council on Integrity and Efficiency.
                      R E S U L T S O F R E V I E W


VRA ACCEPTANCE OF MAILER REFERRALS

We selected a random sample of 800 beneficiaries, from the 98,064 beneficiaries who
submitted CDR mailers requesting VR services between December 1995 and
December 1996. State VRAs evaluated 114 (14 percent) of our sample of
                                             800 beneficiaries and accepted
             RESULTS OF 114 CASE             60 (7.5 percent) for rehabilitation
                EVALUATIONS                  services after the start of our review.2
                                             These individuals were not known to
       42                                    the VRAs prior to the start of our review
   Accepted                          12
    Prior to                     Evaluated   period, December 1995. An additional
    Review                        But Not    42 of these beneficiaries had been
                                 Accepted
    36.84%                                   referred to and accepted by VRAs prior
                                  10.53%
                                             to December 1995, the start of our
                                             review period. These 42 beneficiaries
                                             were either already enrolled in a
                                  60
                               Accepted
                                             rehabilitation program, had completed a
                               Based on      program and were working, or had
                                Review       started a program but had not been
                                52.63%
                                             successfully rehabilitated. The
                                             remaining 12 of the 114 beneficiaries
                                             were evaluated for VR services, but
were not accepted based on the respective VRA’s criteria.

VRAs did not evaluate the remaining 686 (86 percent) of the sampled beneficiaries we
referred. See Appendix B for details of these cases. Of the 686 beneficiaries:

• 329 did not respond to the VRA’s letters and follow-up telephone calls;

•	 192 responded to the VRA stating that they were not interested in rehabilitation
   services;



2
  SSA only reimburses State VRAs for costs related to SSA beneficiaries who are successfully
rehabilitated. SSA considers a beneficiary to be successfully rehabilitated if, after completing a
rehabilitation program, the beneficiary completes 9 months of substantial gainful activity (SGA), defined
as earnings over $700 per month, except for cases involving blindness, for which SGA is defined by a
higher level of earnings. Using vocational rehabilitation program data (regarding the number of
beneficiaries accepted and rehabilitation costs reimbursed) published by SSA’s Office of Disability, we
estimate a success rate of 9.75 percent.
•	 76 scheduled appointments with VRAs, but then did not attend their appointments
   and did not reschedule;

•	 50 were not evaluated for a variety of reasons such as beneficiary death or having
   moved to another State since the time that SSA received their CDR mailers;

•	 25 could not be located by VRAs because the beneficiaries’addresses and
   telephone numbers had changed since the time when SSA received their CDR
   mailers; and

•	 14 were not referred to State VRAs because the beneficiaries were no longer
   receiving benefit payments at the time of our review.

At the exit conference, SSA officials stated that, after the start of our review, SSA
conducted a study of CDR mailers referred to State VRAs in 1994. SSA’s study found
that .11 percent (15 out of 13,662) of the referrals were successfully rehabilitated. This
success rate is lower than the results of our study. As part of our review, we did
not: account for the differences in the success rates, verify the results of SSA’s study,
or compare the characteristics of the beneficiaries included in each study. SSA
officials stated that our results were higher due to VRAs giving our referrals special
handling because the referrals were part of an Office of the Inspector General study.
However, we made every effort to have the State VRAs handle our referrals in their
usual manner. Even if the actual success rate proves to be closer to that found in
SSA’s study, the lifetime savings realized would still be significant.

REFERRAL PROCESSING

The length of time between the beneficiaries’expressing interest in VR services and
the VRAs attempt to contact the beneficiaries contributed to CDR mailer referrals not
being cost-effective. One of the problems identified in our review was the length of
time between the beneficiary returning a completed mailer to SSA and SSA’s referral of
the beneficiary to a VRA. Recent studies have shown that VR programs are most
effective when candidates are referred soon after the onset of disability or request for
services.3 All of the VRAs included in our review reported difficulties contacting
beneficiaries who, oftentimes, did not respond to VRAs’letters and follow-up telephone
calls. Of the 800 beneficiaries we referred to VRAs, 686 were not evaluated for VR
services. Of these 686, some 329 did not respond to VRA contacts and 25 could not
be located.



3
  See National Academy of Social Insurance, Findings and Recommendations of the Disability Policy
Panel: Balancing Security and Opportunity, The Challenge of Disability Insurance Policy, January 1996;
GAO/HEHS-96-62, Social Security Disability: Program Redesign Necessary to Encourage Return to
Work, April 1996; and GAO/HEHS-96-133, SSA Disability: Return-to-Work Strategies From Other
Systems May Improve Federal Programs, July 1996.
Before SSA suspended its VRA referral procedures, service delivery was impeded by
untimely referrals. Due to delays in referring interested beneficiaries, VRAs were often
unable to locate and establish contact with beneficiaries. SSA’s procedures allowed
between 181 and 301 days after receiving a CDR mailer to refer a beneficiary who had
expressed an interest in services. This time lag also diminished the quality of referrals
as beneficiaries’circumstances often change over time. The diminished quality of
referrals was among the reasons why SSA suspended its CDR mailer referral program.
The flow chart below illustrates the processing of these referrals.


                             REFERRAL PROCESSING FLOWCHART

   Mailers received at the                                The Office of Disability,       The Office of
      Data Operations                                       Office of Systems          Disability, Office of
    Center, mailer data         Office of Disability,    furnishes the data to the      Employment and
      scanned or input          Office of Systems           Office of Disability,     Rehabilitation makes
     and electronically       extracts the mailer data     Office of Employment         referrals to State
     transmitted to the          from the National          and Rehabilitation             Vocational
    National Computer            Computer Center             (60 to 120 Days)             Rehabilitation
           Center                     (1 Day)                                               Agencies
      (90 to 120 Days)                                                                   (30 to 60 Days)




CHARACTERISTICS OF BENEFICIARIES ACCEPTED

In January 1996, SSA suspended its procedures for forwarding CDR mailer information
to State VRAs. As the reason for suspending these referrals, SSA officials cited
anecdotal information from State officials that beneficiaries referred based on CDR
mailers were not qualified candidates for rehabilitation. SSA officials also believed that
many beneficiaries answered “Yes”to the rehabilitation question fearing that, if they did
not do so, their benefits would be in jeopardy.

We analyzed the cases which were accepted for VR services to determine their
characteristics. Our analysis of beneficiaries accepted for VR services indicated that
mentally or psychologically impaired individuals comprised about 57 percent of our
800 sampled cases, but represented 80 percent of the 60 cases accepted for VR
services. Our analysis of the 48 cases with a mental or psychological impairment
showed that beneficiaries with the greatest potential for acceptance by State agencies
for VR services were between 30 and 50 years old and had been receiving disability
benefits less than 20 years.

Concern on the part of State VRAs about the cost-effectiveness of evaluating CDR
mailer-referred VR candidates could be addressed by identifying specific
characteristics unique to beneficiaries who are good candidates for VR services. Our
analysis found that cases accepted for VR services share some characteristics that are
different from the average beneficiary in our overall sample. In our sample, the
category of beneficiaries with the highest rate of acceptance for VR services by State
VRAs were mentally or psychologically impaired beneficiaries with the primary
Diagnosis (DIG) codes 2950, 2953, 2960, 3170 and 3180.
                                Beneficiary Characteristics

                                                  60                     800
                      DIG                     ACCEPTED                SAMPLE
                     CODE                      CASES                   CASES
                    DIG 2950                   18.33%                  14.25%
                    DIG 2953                    5.00%                   1.25%
                    DIG 2960                   21.67%                 20.00%
                    DIG 3170                    6.67%                   2.13%
                    DIG 3180                   28.33%                 19.13%
                         Total                 80.00%                 56.76%



            CODE             DIAGNOSIS IMPAIRMENT CODE DEFINITIONS
            2950    Schizophrenic Disorders - Simple Type
            2953    Schizophrenic Disorders - Paranoid Type
            2960    Affective Disorders (emotional problems)
            3170    Mild Mental Retardation
            3180    Mental Retardation


      Characteristics of the 48 Beneficiaries with Specific Diagnosis Codes

                    CHARACTERISTIC                       PERCENTAGE
                    Male                                    47.92
                    Female                                  52.08

                    Age 20-29                                  8.33
                    Age 30-39                                 29.17
                    Age 40-49                                 45.83
                    Age 50-60                                 16.67
                    Receiving Benefits 00-09 Years            52.09
                    Receiving Benefits 10-19 Years            45.83
                    Receiving Benefits 20-30 Years             2.08




State VRAs expend substantial resources evaluating VR candidates. As discussed
previously, SSA does not reimburse VRAs unless a beneficiary successfully completes
a rehabilitation program and continues in SGA for 9 months. The reimbursement
criteria causes concern on the part of VRA officials about the cost-benefit of expending
resources on evaluating CDR mailer-referred VR candidates. SSA could address this
concern by ensuring that only the beneficiaries with the highest probability of
acceptance are referred.
 CONCLUSIONS AND RECOMMENDATIONS


The CDR mailer program can be a valuable tool for identifying viable candidates for VR
services. Further, State VRAs would accept a significant number of disabled
beneficiaries who requested VR services on their CDR mailers if SSA were to refer
them. Under its prior methodology and mailer design, SSA officials concluded that
referring individuals requesting VR on a CDR mailer was not efficient. We believe,
however, that with improvements to the process, these referrals can be cost-effective
and result in significant cost savings.

SSA has already taken steps to improve the quality of CDR mailer VR referrals. In this
regard, SSA revised the CDR mailer in 1997, so that the question regarding VR
services is worded differently and not in the same location as other questions related to
the beneficiary’s medical condition. As stated previously, after making this change, the
number and percentage of beneficiaries answering “Yes”to the VR question dropped
significantly. This decrease in the percentage of beneficiaries requesting VR services
should help SSA in identifying those individuals most likely to be good candidates for
VR referral. Further, ensuring that only the beneficiaries with the highest probability of
acceptance are referred by SSA could reduce the State VRA’s cost of evaluating CDR
mailer-referred VR candidates.

We recommend that SSA take the following actions:

1.	 Establish new procedures requiring that, within a reasonable time after a CDR
    mailer is received, a notification letter is sent to beneficiaries who express interest
    in rehabilitation services, advising them of services and contacts available locally.

2.	 Re-establish procedures for making VRA referrals to State agencies from CDR
    mailers, but with improvements, such as: identifying beneficiaries likely to be
    accepted for services by State VRAs; or hiring a contractor to evaluate mailer
    referrals prior to referring cases to the State VRAs.

AGENCY COMMENTS

In response to our draft report, SSA officials disagreed with both of our
recommendations. SSA stated that the CDR mailer is not an effective means of
identifying VR candidates and that it has developed better initiatives to ensure that
interested beneficiaries receive rehabilitation and employment support services. These
initiatives include a self-referral process that allows beneficiaries who are interested in
VR to advise SSA at any time of their interest in VR services. SSA has also instituted
an alternate participant process whereby a private provider is used if State vocational
rehabilitation agencies do not provide timely services. In addition, SSA noted that the
Work Incentives Improvement Act of 1999, approved by the Senate and the House of
Representatives in 1999, will among other things allow SSA to implement the Ticket to
Work and Self-Sufficiency Program. SSA stated that program will enable beneficiaries
to obtain VR services from an approved provider of their choice, either public or private,
when they are ready to participate. (See Appendix C for SSA’s comments on the
findings and recommendations in our draft report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE

While SSA may have developed additional initiatives to enable interested beneficiaries
to receive rehabilitation and employment support services, we believe the new
initiatives complement rather than supersede the CDR mailer referrals. In addition,
SSA's principle initiatives are not yet fully operational and will require self-referral on
the part of the beneficiaries when implemented. SSA should be more pro-active in
identifying and encouraging individuals who may be able to take advantage of
rehabilitation and employment support services. Accordingly, SSA should use the
readily available information on the CDR mailer to provide timely assistance to those
individuals who express an interest in VR services.

To ask a beneficiary whether he or she wants rehabilitation assistance and then to not
act on an affirmative reply is not in keeping with SSA's strategic objective to "… shape
the disability program in a manner that increases self-sufficiency… "4 As noted in our
report, SSA's modification of the mailer removed the implication that the beneficiary
had to apply for rehabilitation services in order to continue to receive benefits and
resulted in a significant decline in the request for rehabilitative services. To assume
that the CDR mailer is no longer a viable means to identify beneficiaries who may want
rehabilitation services without further study is not consistent with SSA's stated strategic
objective.




4
 SSA's Performance Plan for FY 2000 states that one of its strategic objectives is to "Promote policy
changes, based on research, evaluation and analysis." In order to meet this objective, SSA notes it will
"… shape the disability program in a manner that increases self-sufficiency and takes account of
changing needs, based on medical, technical, demographic, job market, and societal trends."
APPENDICES

                                                                             APPENDIX A



           S A M P L I N G M E T H O D O L O G Y


We obtained a listing of all continuing disability review (CDR) mailers received by the
Social Security Administration (SSA) from beneficiaries nationwide during the period
December 1995 through December 1996 in which the beneficiary responded “YES”to
question 7, “Would you be interested in receiving rehabilitation or other services that
could help you get back to work?”

This extract resulted in 98,064 mailers from all CDR mailers processed during this
period. We do not know the exact total of CDR mailers processed between
December 1995 and December 1996, but in Fiscal Year 1996, SSA processed
275,127 CDR mailers. Our analysis was based on a sample of 800 cases. First, we
randomly selected 8 of the 52 States or State equivalents (i.e., Washington, D.C. or
Puerto Rico). Next, we randomly selected 100 cases from each of the selected States.
The tables below provide a summary of our sampling methodology.


                                                                      Number of
                                                                     Sample Cases
                             Population            Sample            Accepted for
                                Size                Size             Rehabilitation
         Strata 1
         Arizona               1,357                 100                 4
         Strata 2
  District of Columbia          298                  100                 17
         Strata 3
         Indiana               1,948                 100                 6
         Strata 4
       Minnesota                955                  100                 9
         Strata 5
      New Mexico                726                  100                 4
         Strata 6
    South Carolina             1,780                 100                 1
         Strata 7
     South Dakota               206                  100                 8
         Strata 8
        Vermont                 272                  100                 11
          Total                7,542                 800                 60




                                          A-1

During 1990 through 1995, some 396,662 SSA beneficiaries were accepted by State
agencies for vocational rehabilitation services. Of those beneficiaries accepted for
services, SSA reimbursed vocational rehabilitation agencies for the costs to rehabilitate
38,675 beneficiaries. Using these numbers, we estimated that 9.75 percent of
beneficiaries accepted for services are successfully rehabilitated.




                                          A-2

                                                                        APPENDIX B



                        S A M P L E R E S U L T S



                  AZ      DC        IN     MN     NM        SC     SD    VT       Total
Accepted By
State Agency        2        3       8      11        7       4     2         5    42
Prior To Mailer
Referral
Mailer
Referrals           4      17        6       9        4       1     8     11       60
Accepted For
Services
Evaluated But
Not Accepted        0        0       1       0        6       5     0         0    12
For Services
Did Not
Respond            32        0      55      61        29     14    56     82      329
Responded –
Not Interested     29      29       22       3        43     45    21         0   192
No Show For
Appointment        22      38        0       0        0      16     0         0    76
Other Cases
Not Accepted        6        8       5       0        11      8    11         1    50
Could Not
Locate              2        3       0      15        0       5     0         0    25
Not Referred-
Non-Current         3        2       3       1        0       2     2         1    14
Beneficiary

Total             100     100      100     100   100        100   100    100      800


   AZ Arizona                    MN Minnesota              SD South Dakota

   DC District of Columbia       NM New Mexico             VT Vermont

   IN Indiana                    SC South Carolina

                               APPENDIX C



A G E N C Y C O M M E N T S

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “BENEFICIARIES EXPRESSING INTEREST IN VOCATIONAL
REHABILITATION SERVICES THROUGH A CONTINUING DISABILITY REVIEW
MAILER” (A-01-97-61004)


We appreciate the opportunity to review and comment on this draft
report. The report focuses on SSA’s use of the continuing
disability review (CDR) mailer as a means of identifying
beneficiaries who are interested in vocational rehabilitation
(VR). In January 1996, SSA discontinued using the mailer to
identify potential VR candidates because experience has shown
that it is not an effective method based on our findings that
only .11 percent of referrals were successfully rehabilitated (as
defined by SSA’s criteria of nine months of Substantial Gainful
Activity.)

We note that OIG’s study results with regard to genuine interest
in VR services paralleled SSA’s experience. Of the 800
beneficiaries selected for the study who expressed an interest in
VR services via CDR mailer, 597 (75 percent) were not evaluated
by the State vocational rehabilitation agencies (VRA) for reasons
that indicate lack of interest—329 did not respond to letters and
telephone calls; 192 responded that they were not interested; and
76 scheduled appointments but did not attend or reschedule. It
seems reasonable to conclude that the overwhelming number of
persons in the study group did not really desire VR services
despite their affirmative reply on the CDR mailer questions.

Also, we believe the results on the rate of acceptances are
somewhat diminished because the sample was not completely random.
The State of Texas refused to participate and is excluded from
the calculation. Since Texas is large and the sample States are
small, an appropriately weighted sample would make the results
even less effective. We also believe acceptance of the cases by
the VRAs was likely influenced by the fact that OIG was making
the referral.

SSA has developed other more effective initiatives to identify
interested beneficiaries, including a self-referral process which
allows beneficiaries to ask SSA to coordinate VR services at any
time instead of being limited to when a medical decision is being
made. We believe this process is superior to having the
beneficiary use the mailer to indicate interest because it allows
individuals to request services whenever they are ready to
participate. In addition, it enlarges the pool of candidates
because it is available to all disabled beneficiaries, not just
those
selected for medical reviews or those falling into limited
diagnostic categories. We have acknowledged the issue of
timeliness by expanding the community of VR providers available
by implementing the alternate participant process. If State VRAs
do not provide services timely a private provider, known as an
alternate participant, is used.

Other major initiatives are encompassed in the Work Incentives
Improvement Act of 1999. The Act, passed by the Senate in June
1999 and being considered by the House of Representatives, will,
among other things, enable beneficiaries to participate in VR
services from an approved provider they choose, either public or
private, when they are most ready.
Recommendation

Establish new procedures requiring that, within a reasonable time
after a CDR mailer is received, a notification letter is sent to
beneficiaries who express interest in rehabilitation services,
advising them of services and contacts available locally.
Comment

We do not agree. Experience has shown the CDR mailer is not an
effective means of identifying VR candidates. As described
above, SSA has developed better initiatives to ensure interested
beneficiaries receive rehabilitation and employment support
services.
Recommendation

Re-establish procedures for making VR referrals to State agencies
from CDR mailers but with improvements such as: identifying
beneficiaries likely to be accepted for services by State VRAs;
or hiring a contractor to evaluate mailer referrals prior to
referring cases to the State VRAs.
Comment

We do not plan to use the mailer for the reasons stated above.
Other Comments

We share OIG’s concern for improving outreach efforts and for
better targeting of efforts to those beneficiaries most likely to
desire, participate, and succeed in VR. Provisions of the Work
Incentives Improvement Act of 1999 are designed with these
concerns in mind and we feel represent better opportunities for
success than any derivative of the CDR mailer.
We also note that the report does not provide a cost-benefit
ratio for VR referrals based on CDR mailer information. The
report also makes the assumption that more timely referrals will
result in more cases being evaluated by VR agencies but does not
provide any data to support this. In addition, study cases were
not tracked to determine actual success rate.
                                                                   APPENDIX D



MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Roger Normand, Director, Northern Program Audit Division


Rona Rustigian, Deputy Director


Steve Kurker, Auditor-in-Charge


Walter Bayer, Auditor


Cheryl Robinson, Writer-Editor, Technical Services



For additional copies of this report, please contact the Office of the Inspector

General’s Public Affairs Specialist at (410) 966-5998. Refer to Common

Identification Number A-01-97-61004.

                        APPENDIX E



SSA ORGANIZATIONAL CHART

